No. 20-6684

In the Supreme Court of the United States

DANIEL T. SILVERIA, Petitioner,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 2,664 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: March 22, 2021
Respectfully submitted,
MATTHEW RODRIQUEZ
Acting Attorney General of
California
s/ Arthur P. Beever
*ARTHUR P. BEEVER
Deputy Attorney General
*Counsel of Record
*Counsel for Respondent

